<html>
<title> - U.S. EFFORTS TO COMBAT ARMS TRAFFICKING TO MEXICO: REPORT FROM THE GOVERNMENT ACCOUNTABILITY OFFICE (GAO)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                U.S. EFFORTS TO COMBAT ARMS TRAFFICKING
   TO MEXICO: REPORT FROM THE GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2009

                               __________

                           Serial No. 111-19

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
50-508                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccabbca38cafb9bfb8a4a9a0bce2afa3a1e2">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON,                     MIKE PENCE, Indiana
    California<greek-l>              JOE WILSON, South Carolina
ADAM SMITH,                          JOHN BOOZMAN, Arkansas
    Washington deg.<greek-l>Until    J. GRESHAM BARRETT, South Carolina
    2/9/09 deg.                      CONNIE MACK, Florida
RUSS CARNAHAN, Missouri              JEFF FORTENBERRY, Nebraska
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GERALD E. CONNOLLY, Virginia         TED POE, Texas
MICHAEL E. McMAHON, New York         BOB INGLIS, South Carolina
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
GENE GREEN, Texas
LYNN WOOLSEY, California<greek-l>As 
    of 3/12/09 deg.
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida<greek-l>
VACANT deg.<greek-l>From 2/10/09 
    through 3/12/09 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                   ELIOT L. ENGEL, New York, Chairman
GREGORY W. MEEKS, New York           CONNIE MACK, Florida
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GENE GREEN, Texas                    CHRISTOPHER H. SMITH, New Jersey
GABRIELLE GIFFORDS, Arizona          DAN BURTON, Indiana
ENI F. H. FALEOMAVAEGA, American     ELTON GALLEGLY, California
    Samoa                            RON PAUL, Texas
DONALD M. PAYNE, New Jersey          JEFF FORTENBERRY, Nebraska
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
BARBARA LEE, California
JOSEPH CROWLEY, New York
RON KLEIN, Florida
              Jason Steinbaum, Subcommittee Staff Director
        Eric Jacobstein, Subcommittee Professional Staff Member
          Francis Gibbs, Republican Professional Staff Member
                  Julie Schoenthaler, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. Jess T. Ford, Director, International Affairs and Trade Team, 
  United States Government Accountability Office (GAO)...........    12

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     4
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida: Prepared statement...........................     8
Mr. Jess T. Ford: Prepared statement.............................    16

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................    34
Questions for the record submitted by the Honorable Eliot L. 
  Engel along with responses by Mr. Jess T. Ford.................    35
Questions for the record submitted by the Honorable Michael T. 
  McCaul, a Representative in Congress from the State of Texas, 
  along with responses by Mr. Jess T. Ford.......................    47
Questions for the record submitted by the Honorable Gabrielle 
  Giffords, a Representative in Congress From the State of 
  Arizona, along with responses by Mr. Jess T. Ford..............    51


  U.S. EFFORTS TO COMBAT ARMS TRAFFICKING TO MEXICO: REPORT FROM THE 
                 GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

                              ----------                              


                         FRIDAY, JUNE 19, 2009

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 12 o'clock p.m. 
in room 2172, Rayburn House Office Building, Hon. Eliot L. 
Engel (chairman of the subcommittee) presiding.
    Mr. Engel. A quorum being present, the Subcommittee on the 
Western Hemisphere will come to order.
    I am very happy to have this hearing, albeit a day late. As 
you know, it was impossible with all the votes we had yesterday 
to do the hearing, so I apologize for any inconvenience, but I 
am delighted that we are able to do the hearing today because 
the subject is really important. And I must say, I have never 
seen so much interest all over the media and people in general 
and the reports, the reports of our hearing and the findings 
have been all over the country in newspapers, on television, in 
Mexico as well, so this has been very widely covered. And, I am 
delighted that the media has picked up and run with this 
because it is a very important issue.
    So today's hearing will focus on the just released 
Government Accountability Office report on U.S. Efforts to 
Combat Arms Trafficking to Mexico. I commissioned this report 
with the former ranking member of this subcommittee, Dan 
Burton, and several other subcommittee members last year. The 
availability of firearms illegally flowing from the United 
States into Mexico has armed and emboldened a dangerous 
criminal element in Mexico, and it has made the brutal work of 
the drug cartels even more deadly.
    Data in the GAO's report shows that 93 percent of firearms 
recovered in Mexico and traced in FY 2008 originate in the 
United States. In FY '06 and '07 the number was 95 percent. 
Now, I have been going around saying 90 percent of the guns 
used by the drug cartels to commit crimes come from the United 
States, and now it is even more than 90 percent. It is just 
unacceptable. It is just totally unacceptable as far as I am 
concerned.
    It is not the first time that this subcommittee has focused 
on what the Bureau of Alcohol, Tobacco, and Firearms and 
Explosives, ATF, has referred to as the iron river of guns 
illegally flowing from the United States into Mexico. When the 
Merida Initiative was announced in October 2007, the United 
States and Mexico put out a joint statement in which the United 
States pledged to ``intensify our efforts'' to combat the 
trafficking of weapons to Mexico. As chairman of this 
subcommittee I have been waiting for too long for us to live up 
to this commitment, and I will not let up on the pressure until 
we do so.
    It has been 1\1/2\ years since the Merida Initiative was 
announced. Shockingly, what did we find in the GAO's report? It 
states that until just a couple of weeks ago, the United States 
strategy to combat firearms trafficking to Mexico was nowhere 
to be found. On June 5th, the Office of National Drug Control 
Policy released its 2009 National Southwest Border 
Counternarcotics Strategy, which for the first time includes a 
chapter on combating illicit firearms trafficking to Mexico.
    But implementation still has not begun. It is mind boggling 
that for 1\1/2\ years we have had no interagency strategy to 
address this major problem but instead have relied on 
uncoordinated efforts by a variety of agencies. A strategy to 
combat arms trafficking to Mexico should have been in place and 
running on October 22nd, 2007, the day that Presidents Bush and 
Calderon announced the Merida Initiative. I am glad that 
President Obama has finally begun to address this.
    The June 5th announcement was certainly a step in the right 
direction. That was the President's announcement, and we now 
anxiously await further direction on this interagency strategy 
and the roles and responsibilities of various U.S. agencies. As 
the GAO reports, ATF and Immigration and Customs Enforcement, 
the two main agencies implementing efforts to combat firearms 
trafficking to Mexico, do not effectively coordinate their 
efforts.
    I fully endorse the GAO's recommendation that the Attorney 
General and the Secretary of Homeland Security finalize a 
memorandum of understanding between ATF and ICE, and ATF we 
know and ICE being Immigration and Customs Enforcement. I was 
also pleased to author a provision in the House passed Foreign 
Relations Authorization Act, which we just passed last week, 
which will create an interagency task force on the prevention 
of illicit small arms trafficking in the Western Hemisphere to 
assure that our efforts to curb firearms trafficking are better 
coordinated not just with regard to Mexico but with all 
countries in Latin America and the Caribbean.
    I was not surprised to learn in the GAO report that certain 
provisions of Federal firearms laws, including the Tiart 
Amendment, present challenges to United States efforts to curb 
firearms trafficking to Mexico. Current restrictions on 
collecting and reporting information on firearms purchases not 
only make the jobs of our fine police officers more difficult 
than they already are, but also inhibit our ability to 
effectively curb firearms trafficking to Mexico, and I have 
said many, many times that this is not a Second Amendment 
issue. I support Second Amendment rights. This is an issue of 
illicit firearms going south of the border.
    GAO reports that of the 87 percent of firearms recovered in 
Mexico originating from the United States between 2004 and 
2008, 19 percent were manufactured in third countries and 
imported into the United States before being trafficked into 
Mexico. This is why we must once again enforce the ban on 
imported assault weapons that was previously enforced during 
the administrations of President George H.W. Bush and Bill 
Clinton.
    In recent years, the George W. Bush administration quietly 
abandoned enforcement of the import ban. As a result, the U.S. 
civilian firearms market is flooded with imported, inexpensive, 
military style assault weapons. These assault weapons, which 
often come from Eastern Europe or China are being trafficked 
from the United States across the border into Mexico. To get 
around the ban, importers have been able to skirt restrictions 
by bringing in assault weapons parts and reassembling them with 
a small number of U.S. made parts.
    In other words, the guns are 98 or 99 percent the same, but 
they tinker with it. They make a little change in it, and 
therefore they get around the ban. That is also totally 
unacceptable. Enforcing the existing import ban requires no 
legislative action and would be a win-win for the United States 
and Mexico. On February 12th, I sent a letter to President 
Obama signed by a bipartisan group of 52 of my colleagues 
urging him to once again enforce the ban on imported assault 
weapons. We are waiting for President Obama to act.
    The data in today's report only reinforces the need to 
return to enforcement of this ban. Finally, I would like to 
once again call upon the Senate to ratify the Inter-American 
Convention against Illicit Manufacturing of and Trafficking in 
Firearms, also known as CIFTA. President Obama has publicly 
called for the Senate to ratify CIFTA, and so has Secretary of 
State Hillary Clinton. This treaty was signed during the 
Clinton administration and must be ratified so the United 
States can tell our friends in the Hemisphere that we are 
serious in addressing the problems of illegal weapons 
trafficking.
    Before I close, I would like to personally thank the GAO 
team who put together this extraordinary report over the past 
year, and I want to mention their names, Jess Ford, Juan Gobel, 
Addison Ricks, and Lisa Hellmer. Thank you all for your 
excellent work.
    With that, I would now like to call on my friend, 
<greek-l>the  deg.Ranking Member Mack, for his opening 
statement.
    [The prepared statement of Mr. Engel 
follows:]<greek-l>Engel statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Mack. Thank you, Mr. Chairman. Thank you for holding 
this hearing, and I know it has been difficult to get to this 
hearing because of all the votes yesterday, but you have a 
great staff and you guys were able to make it happen today. I 
also want to thank Mr. Ford for being here and his testimony. 
Today is I think very important to this issue as we move 
forward. And, Mr. Chairman, I hope it is appropriate, but I 
would also like to welcome your son Phillip who is here with us 
today. Good to see you, Phillip. Your dad thinks a lot of you.
    Mr. Engel. I do, and he is also better looking than me.
    Mr. Mack. Mr. Chairman, I do think it is important that as 
we move forward that, it is my belief that there are many flaws 
in this report, and to base future action on a report that in 
my opinion is flawed doesn't make a lot of sense. What we do 
know for sure is that violent crime in Mexico is on the rise, 
which is a horrible thing. But this report makes conclusions 
based upon opinions and assumptions.
    Example, the report states that officials have said that 
they saw no reason why drug cartels would go to Asia or Eastern 
Europe to get weapons when it is so easy to get them from the 
United States, but on page 23 you list Washington State as a 
source of weapons. If the drug lords are going to Washington 
State to get weapons, why not Venezuela? Venezuela is much 
closer and flooded with military weapons.
    Also, we hear a lot about this number, 90 or 95 percent of 
the weapons are coming from the U.S. Well I would suggest that, 
and even by this own report, they don't know the total number 
of weapons that are coming into Mexico, and that number, the 90 
or 95 percent, represents the number of guns that they can 
trace. And by and large it is the U.S. weapons that are 
traceable. I would ask how many weapons they have <greek-l>they 
 deg.been able to trace from Venezuela.
    And I think this report contradicts itself. It makes up 
concrete conclusions, but also says there is no way of knowing 
the ultimate facts. For example, the report says that 
``available information suggests that most firearms come from 
the U.S.'' But it then says that the exact number of guns 
trafficked to Mexico is unknown. I think it has got to be very 
difficult when you ask the GAO to do a report, when you are 
trying to put numbers around something that is almost 
impossible to come up with.
    The idea that 90 percent of all of the weapons in Mexico 
come from the United States is one, just unbelievable, and two, 
I think the report also if you read it carefully suggests that 
they don't know the total number of guns that are coming into 
Mexico. And the assumptions that are made are not based on fact 
but based upon suggestion and one's belief. I do recognize 
though that there is a problem over the border in Mexico, and I 
would suggest to the committee and to people out there 
watching, that if you really want to get this under control, 
the way to do it is to secure our border. And both Mexico and 
the United States have a shared interest in securing our 
border.
    On one hand Mexico doesn't want money and guns moving south 
across the border into Mexico, and on the other hand we don't 
want criminals and terrorists coming north across the border 
into the United States. We have a shared benefit by securing 
the border. And I believe it is that action that will 
ultimately, if you want to get out the guns that are moving 
from the United States into Mexico, the way to do it is 
strengthen the border.
    Mr. Chairman, again I thank you for holding this hearing 
and your tenacity on making it happen because of the challenges 
that we face. But ultimately, I think we have a hearing and we 
are going to come to some conclusions based upon a flawed 
report, and I hope that Mr. Ford has the opportunity to try to 
clarify some of these issues in the report. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Mack follows:]<greek-l>Mack 
statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Engel. Thank you very much, Mr. Mack.
    Mr. Sires.
    Mr. Sires. Let me first thank you for your patience. We had 
a great day yesterday. It boosted up my percentage a great deal 
for the amount of votes that we took. And I want to thank the 
chairman for holding today's hearing. I am pleased the 
subcommittee is taking a hard look at how our domestic arms 
policy significantly affects our neighboring countries.
    If we are to be successful in our efforts to curb drug 
trafficking and limit gang violence, we must be successful in 
efforts to reduce arms trafficking in Mexico and throughout the 
region. Our closest allies are fighting criminals that are well 
financed by our drug addiction and well armed by our free flow 
of weapons. Combating arms trafficking must be a critical part 
of our ongoing battle to achieve security and prosperity on our 
borders and throughout our countries. I look forward to having 
a good in-depth discussion, and am looking forward to share 
some of the information that I read in the report, and I thank 
you for being here.
    Mr. Engel. Thank you, Mr. Sires.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, for holding this 
important hearing. I would like to welcome Mr. Ford and thank 
you and your colleagues for all your work in this comprehensive 
report over the last year. Representing a district in Texas I 
have a personal interest in this issue as the violence on our 
border continues to escalate because of President Calderon's, I 
might say heroic efforts to address drug trafficking and crime 
and corruption in his country. I applaud President Calderon's 
efforts, but alleviating illicit drug trafficking is not just 
Mexico's fight.
    And that is why we passed the Merida Initiative last 
Congress and why the Department of Homeland Security has ramped 
up its efforts on our border. One of the greatest challenges we 
face in the addressing of this drug trade and the associated 
violence is the arms that these traffickers are able to get 
their hands on. Combating the arms trafficking into Mexico is 
primarily our battle, and, Mr. Ford, your evidence highlights 
this point.
    According to your report, the available evidence shows that 
a majority of the firearms fueling this drug violence originate 
in the United States, yet you found our efforts to combat this 
illegal trafficking face several challenges, particularly 
related to coordination between ATF and ICE, who astonishingly 
for all this time have not had a strategy to explicitly address 
arms control trafficking to Mexico. Also, the ineffective use 
of eTrace by Mexico, and I hope we will be able to deal with 
that and highlight it in your report.
    The Office of National Drug Control Policy recently 
released its 2009 National Southwest Border Counternarcotics 
Strategy, which for the first time includes a chapter on 
combating illicit arms trafficking to Mexico. However, this 
chapter is only a basic framework with an implementation plan 
to follow later this summer. We can enforce export controls of 
firearms from our country without limiting our country's basic 
Second Amendment rights.
    And, Mr. Ford, I look forward to your specific 
recommendations on what this plan should include and whether 
something we can as an authorizing committee do to help, 
especially since the State Department's Narcotics Affairs 
section has stated that it only has some flexibility to shift 
Merida funding into combating arms trafficking, but this amount 
would be small as the Merida Initiatives does not provide 
dedicated funding to address the issue.
    And again, Mr. Chairman, I think that is also something we 
ought to highlight, Merida Initiative didn't provide for 
funding on our side of the border to deal with it. So we might 
want to consider that effort. And I look forward to your 
testimony.
    Mr. Engel. Thank you very much, Mr. Green.
    Mr. Payne.
    Mr. Payne. Well let me also thank you, Mr. Chairman, for 
your persistence and for having this very important hearing. 
Something must happen. This carnage that is going on in Mexico 
that is coming across the border is senseless. We need to 
really have some way to stop the flow of illegal weapons across 
the border, but also we really need to take a look at how do we 
get guns off the street in our cities, where there is a 
tremendous amount of violence that is going on in most of our 
major cities with many lives being lost.
    You know, I am sure that when those men wrote the Second 
Amendment hundreds and hundreds of years ago they certainly 
didn't have the intent of what is happening now, and there is 
some way that we need to seriously take a look at the 
proliferation of guns and the death that it brings on innocent 
people. One day, as a matter of fact, if we took violent death 
out of the United States as mortality rates, we would have the 
longest life expectancy in the world. However we don't, and it 
is because of the tremendous number of violent deaths that 
happen in the United States of America, which is very rare in 
Europe where people are not in love with guns as we find so 
many in this nation. And so hopefully we can really start to 
get some sound thinking on this issue. I yield back the balance 
of my time.
    Mr. Engel. Thank you, Mr. Payne. Before I call on Ms. 
Giffords, I just want to state the fact that Ms. Giffords's 
district borders with Mexico in Arizona, and I wanted just to 
call to her attention as I had mentioned before that just 2 
weeks ago the Office of National Drug Control Policy released 
its 2009 National Southwest Border Counternarcotics Strategy 
which for the first time includes a chapter on combating 
illicit firearms trafficking to Mexico, so I have had many 
discussions about this with Ms. Giffords and it is an issue of 
much concern to her. And in the fall I am hoping to go to her 
district and perhaps do a field hearing with this subcommittee 
to talk about this issue and other issues, immigration or 
whatever, involving the border between Mexico and of course 
Arizona.
    So I call on Ms. Giffords for her remarks.
    Ms. Giffords. Thank you, Mr. Chairman. I appreciate your 
leadership on this subcommittee. We look forward to having you 
and other members of the committee that are interested in 
coming down really to the front lines of what is happening in 
terms of violence and the drug smuggling across the United 
States-Mexico border.
    I want to welcome Mr. Ford. Good afternoon, it is great to 
have you here today. I was recently appointed the vice chair of 
the United States-Mexico interparliamentary workgroup, where 
just a couple weeks ago we Mexicans and Americans came 
together, Members of the House and the Senate on both sides of 
the border, to talk about the variety of issues that we have at 
hand, and it is an important meeting but particularly in light 
of what is happening with illegal immigration and drug 
smuggling and the violence as well.
    Last February, six colleagues and I requested the GAO 
report to look at the flow of firearms across the border, and 
in contradiction to some comments that were made earlier, I am 
very proud of the work that the GAO does. The GAO as well we 
asked to do a report looking at the checkpoint issue along the 
United States-Mexico border. And to see the dedication of 
members of the GAO that come out, that get to know the 
districts in the area sometimes better than the members 
frankly. It was incredibly impressive. So if you would please 
complement and pass on the words to your staff, it is a 
tremendous resource that we have the GAO available to us, and I 
think your work is excellent.
    I think this hearing is timely, looking at drug violence 
since 2006 that has claimed over 10,000 lives. Just last week 
the Mexican Army captured 25 gunmen in the state of Chihuahua, 
seized 29 automatic rifles. That is the same day that 
authorities in the western state of Michoacan reported that 
three Federal agents had been killed in two attacks along the 
highway, and investigators there recovered more than 500 shell 
casings at the two crime scenes.
    So this report allows us to highlight the need for 
additional resources, again on both sides of the border. We are 
not going to solve this problem on our side and they are not 
going to solve it on their side unless we work cooperatively 
together. Again, Mr. Chairman, I do represent the most heavily 
trafficked district in terms of illegal immigrants coming into 
the United States, that is the Tuscon sector of the Border 
Patrol. And we see more violence and more guns and more drugs 
flowing both ways, and it is a problem that we have to address. 
So again thank you for your leadership on this, and we are 
looking forward to hearing from your testimony.
    Mr. Engel. Thank you very much, Ms. Giffords.
    Before I call on our distinguished witness, I want to 
mention something and want to especially compliment Mexican 
President Calderon. In the past 6 months I have met with him 
five times. Five times in four different countries actually, 
more so than I have met with any other leader in the 
Hemisphere. And I must say that I admire President Calderon's 
courage and intelligence and his great decision to not just sit 
quietly and allow the drug lords and the drug cartels to 
continue to wreak havoc in his country.
    He has moved forcefully against them, which is probably a 
contribution to the reason why they are now being defiant and 
acting out and doing so much more destruction damage to try to 
push him around and push back and try to show him who is boss. 
Well, we have a stake in the Mexican Government and the Mexican 
President declaring that they are the ones who run things in 
Mexico, not the cartels who are trying to destroy so many lives 
just for money that they can line their pockets with.
    So I just want to say that I and other members of this 
subcommittee admire the work that President Calderon has done 
in this regard, and I think that the bilateral relationship 
between the United States and Mexico is such an important 
relationship that anything that we do needs to be coordinated 
with Mexico with regard of course to border policy and 
everything else that we have talked about, immigration, drug 
trafficking, gun trafficking, all the problems.
    We are only going to be successful if we work on this 
together. But I did want to say again that I am delighted to 
have had five bilateral meetings with him, private meetings 
with subcommittee members, with some other Members who are not 
on the subcommittee, and privately, and I admire his tenacity 
and his courage. I want to say that.
    So now I am pleased to introduce our distinguished witness 
today, Jess Ford. Jess is a Director for Internal Affairs and 
Trade at the Government Accounting Office, known affectionately 
as the GAO, where he has worked since 1973. That is even longer 
than I have been here. Mr. Ford, who has testified before 
Congress over 40 times, is no stranger to this subcommittee. I 
was pleased to welcome you here in October 2007 for a hearing I 
chaired just as the Merida Initiative was announced. And it is 
a pleasure to welcome you back to the subcommittee once again. 
In fact you have been with GAO so long as Mr. Ford, you were 
even there when we had President Ford. So it is nice to have 
someone with a lot of experience and I look forward to 
listening to your testimony today. Thank you, Mr. Ford.

STATEMENT OF MR. JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS 
AND TRADE TEAM, UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE 
                             (GAO)

    Mr. Ford. Thank you very much, Mr. Chairman and members of 
the subcommittee. I appreciate those kind words.
    I am pleased to be here today to discuss our recent report 
related to illicit arms trafficking into Mexico. In recent 
years violence along the Mexico border has escalated 
dramatically as the administration of President Felipe Calderon 
has sought to combat the growing power of Mexican drug 
trafficking organizations and to curb their ability to operate 
with impunity in areas of Mexico. Mexican officials have come 
to regard illicit firearms as the number one crime problem 
facing the country.
    According to the Department of Justice 2009 National Drug 
Threat Assessment, Mexican drug trafficking organizations 
represent the greatest organized crime threat in the United 
States, controlling drug distribution in many U.S. cities. In 
particular, law enforcement reporting indicates Mexican drug 
trafficking organizations maintain drug distribution networks 
and drug supply distributions in over 230 U.S. cities.
    In March 2009, the Department of Homeland Security 
announced that it planned to increase resources on the United 
States-Mexican border including more personnel and greater use 
of available technologies. And as the chairman mentioned, just 
2 weeks ago the ONDCP released its new Southwest Border 
Counternarcotics Strategy, which for the first time contains a 
chapter on arms.
    Today I am going to discuss the data that is available on 
the types, sources, and users of arms, the key challenges that 
confront the U.S. Government in its efforts to combat illicit 
sales of firearms in the United States and to stem the flow of 
these arms across the southwest border into Mexico, the 
challenges facing United States agencies collaborating with the 
Mexican authorities, and the U.S. Government's strategy for 
addressing this issue.
    Available evidence indicates that a large proportion of 
firearms fueling the Mexican drug violence originated in the 
United States, including a growing number of increasingly 
lethal weapons. While it is impossible to know how many 
firearms are illegally trafficked into Mexico in any given 
year, over 20,000, or around 87 percent of the firearms seized 
and traced over the past 5 years have originated in the United 
States according to ATF.
    The data we are using is ATF data, we have spent a lot of 
time working with them, and I can get into that in the Q & A 
about what we know about this issue. We believe this is the 
best data that is currently available that indicates what the 
nature of the problem is. In the last 3 years, over 90 percent 
of the guns that were traced from Mexico came from the United 
States according to ATF. The chart that I have got to my left 
is a summarization actually of the 5 years of information that 
came from ATF, including the actual number of guns that were 
traced from the United States, and if you totaled that number 
up, it is over 20,000 guns over the last 5 years.
    Of that amount, ATF data shows that approximately 68 
percent of the firearms were manufactured in the United States, 
and 19 percent were manufactured in third countries. The 
remaining amounts ATF was not able to identify for us exactly 
where the guns were manufactured. According to United States 
and Mexican Government officials, these firearms have been 
increasingly more powerful and lethal in recent years. For 
example, many of these firearms are high caliber, high powered 
weapons such as AK-47s and AR-15 type semiautomatic rifles.
    According to ATF trace data, many of these firearms came 
from gun shops and gun shows in the southwest Border States 
such as Texas, California, and Arizona. United States and 
Mexican Government and law enforcement officials 
state<greek-l>s deg. that most guns trafficked in Mexico are 
intended to support the operations of Mexican drug trafficking 
organizations which are responsible for most of the trafficking 
of arms into Mexico.
    The U.S. Government faces several significant challenges in 
its efforts to combat the illicit sale of firearms and to stem 
the flow of arms across the border. First, according to ATF 
officials, certain provisions of some Federal firearm laws 
present challenges in their efforts to investigate firearms 
cases. The three areas that they identified for us include the 
restrictions on collecting and reporting information on 
firearms purchases, the lack of required background checks for 
private firearms sales, and limitations on reporting 
requirements on multiple gun sales.
    Another major challenge that we found is that ATF and ICE, 
the two primary agencies responsible for implementing efforts 
to address the smuggling of arms and identifying the nature of 
the problem, are not consistently coordinating their efforts 
effectively in part because the agencies lack clear roles and 
responsibilities and have been operating under an outdated 
interagency agreement. This has resulted in some instances of 
duplicate initiatives and confusion in operations.
    Additionally, we found agencies lack systematic analysis 
and reporting on data related to arms trafficking, and that 
they are also unable to provide complete information to us on 
the results of their efforts to stop guns from being smuggled 
into Mexico. We believe this type of information could be 
useful to better understand the nature of the problem and to 
help plan ways to address it and to make more progress in 
stopping the illicit smuggling of arms into Mexico. United 
States law enforcement agencies and the Department of State 
have provided some assistance to Mexican counterparts in 
combating arms trafficking, but these efforts face several key 
challenges.
    United States law enforcement agencies have built working 
relationships with Mexican Federal, state, and local law 
enforcement, as well as the Mexican military, which has given 
the United States the opportunity to provide the Mexican 
Government counterparts with technical and operational 
assistance to address the firearms problem. For example, 
although the Merida Initiative provides general law enforcement 
and counternarcotics assistance to Mexico, it does not provide 
dedicated funding to address the issue of arms trafficking.
    A number of officials told us that would be helpful to 
combat arms trafficking such as establishing multi-agency arms 
trafficking taskforce to help address this problem. 
Furthermore, United States assistance has been limited in 
helping the Mexican Government to expand its capabilities to 
provide better trace information to the United States 
Government to better understand the overall nature of gun 
trafficking and gun problems in the country.
    According to Mexican and United States Government 
officials, extensive corruption in Federal, state, and local 
levels is another problem that impedes United States efforts to 
develop effective and dependable partnerships with the Mexican 
Government. Mexican Government officials indicated that 
anticorruption measures such as increased use of polygraph and 
psychological testing, background checks, and salary increases 
are efforts underway to try to address this problem.
    Mr. Chairman, I am not going to mention the new strategy 
other than to acknowledge the fact it is the first time that 
our Government has put together an articulated strategy to deal 
with the gun issue. The strategy is new, it just came out 2 
weeks ago. There are some key issues related to the strategy 
that have not yet been fully announced by the administration. 
The key issues in our mind have to do with an implementation 
plan that will go along with the strategy.
    We think it is critical that this plan have a clear sense 
of who is going to be responsible for carrying out the key 
parts of the strategy and it will have some performance 
indicators so we will know somewhere down the road how 
effectively the strategy is working. And we have a 
recommendation in our report that ONDCP provide that type of 
information.
    Finally, Mr. Chairman, we made a series of recommendations 
to the Attorney General's Office and Homeland Security covering 
such issues as addressing the issue of how some of the legal 
constraints might be addressed, and if they feel necessary to 
approach the Congress with whatever remedies they believe need 
to be taken that they finalize this memorandum of understanding 
that has been under negotiation for several months to better 
improve their working relationship between ATF and ICE, that 
they improve their data gathering techniques related to the 
nature of the problem and the reporting of results on gun 
smuggling, that they expedite their working relationship with 
the Mexican Government to enhance eTrace capability so that we 
have a better understanding of the nature of gun trafficking in 
Mexico, and as I mentioned that ONDCP incorporate the 
implementation plans and performance measures so that Congress 
will have a better understanding of whether we are having 
success in this area.
    Mr. Chairman, that concludes my opening statement. I would 
be happy to answer any of your questions.
    [The prepared statement of Mr. Ford follows:]<greek-l>Jess 
Ford deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you, Mr. Ford. Let me say that in about 10 
minutes I think we are going to have a series of votes, so I 
would like to see if we could perhaps conclude within the next 
10 or 15 or 20 minutes perhaps.
    Let me just ask you this--well, I guess I was a little off 
with the timing of the votes. Let me just ask you this. On June 
4th, President Obama said that there was going to be a new 
strategy, ostensibly to plug the holes with some of the things 
that we found wanting in the report. Help me to understand what 
happens. You have issued a report, there are a lot of good 
things in that report, there are things in that report that I 
think many of us, probably on both sides of the isle, would 
want implemented. When the administration starts to implement 
it, what is the mechanism for incorporating some of the 
recommendations in your report?
    I know the President doesn't have to use your 
recommendations, but I would hope since it was a year's work 
and it was well thought out and well done that the 
administration would look to this report. So help me to 
understand how that dynamic works. Because otherwise the 
administration is coming up with a whole way of doing things 
which may to some degree coincide with the report but perhaps 
not. I would hope that they would read the report and would 
incorporate a lot of what the report says into their 
recommendations for change.
    Mr. Ford. There are a couple of things. First of all, we 
did get official comments from Department of Homeland Security 
and State Department, and both of those agencies agreed with 
the recommendations that we had for them. So we hope that they 
will actually implement them. They said they would. They are 
required within 60 days of the issuance of a report to actually 
send a letter to Congress indicating what action they are going 
to take. With regard to the Department of Justice and the 
ONDCP, they did not provide official comments to our draft.
    So at this point we do not know whether they agree with our 
recommendations and whether or not they will act on them. I can 
tell you that we have had several discussions with officials at 
ONDCP who have indicated to us that they do intend in fact to 
put out an implementation plan directly related to this 
strategy and that that plan will contain accountability and 
performance measures that will help Congress understand whether 
or not we are having any success. They haven't told us that 
officially, but unofficially they have told us that, so I have 
confidence that some action will be taken in that area. I 
cannot comment on the Department of Justice. They did not 
provide us with any information about whether they are going to 
agree to our recommendations or not.
    Mr. Engel. Well I am going to write a letter to the 
President and urge him to have his administration take into 
account this report when they are formulating what they are 
going to do with this. And their January 4th statement again 
was a good one, but, you know, the proof is in the pudding. I 
hope they will listen to what you have to say. I am going to 
leave it just from my question, I am going to give everybody 
else a chance to ask a question if they want because we 
obviously have some time constraints right now.
    So I will call on Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman.
    And as I mentioned in my opening statement, I am having a 
little bit of difficulty having any real confidence in the 
report. It is not to say that I don't think some of the 
recommendations that you come up with might be good ones, but I 
don't know that the report itself is something that we should 
put a lot of value in. Most of the things you have talked 
about, most of the numbers you have talked about have been 
based upon the number of guns that you were able to trace, and 
we know that a majority of guns that you are able to trace are 
the ones that come from the U.S. But that leaves out a majority 
of the guns that are being seized.
    So I would ask how many guns were you able to trace to Cuba 
or Venezuela or Bolivia or Ecuador, or from other continents? 
That would be a question that I would have for you. Also, you 
know, just I think 2 days ago we were at another hearing 
together where you had said that radio or TV Marti, that less 
than 1 percent of Cubans see it. And I suggested then that how 
would you even contemplate that a Cuban would answer the phone 
and say, yes I watch TV Marti when they are in Cuba living 
under a brutal dictatorship?
    So these two things, this report and that report, I am 
having a hard time having any kind of real confidence in the 
report itself. So if you could comment on how many of the 
weapons do we know come from Cuba, Venezuela, Bolivia, Ecuador, 
and if you agree that if we had a strong border between United 
States and Mexico, if that would stop any of the guns that are 
moving south, if that would stop it as well.
    Mr. Ford. Okay, well let me maybe respond first to the 
issue of the data that you indicate you believe the way we have 
portrayed that information is flawed. I don't agree with that 
conclusion. What we have got is a summary of information that 
came from ATF. It is ATF data, it is not GAO data. The ATF data 
is based on guns that were identified and traced from Mexico. 
As we clearly state in our report, that represents 
approximately a quarter of the guns that the Mexican Government 
reported that they seized in 2008. So we clearly identify that 
in the report. Secondly, with regard to, the data is the data. 
It is 20,000 guns----
    Mr. Mack. Let me just say this. So it would be, so you 
would also say that to say that 90 percent or 95 percent of the 
guns in Mexico are coming from the United States is false, that 
is not an accurate statement?
    Mr. Ford. That is correct, and we don't say that.
    Mr. Mack. Right, but other people are saying that. So I 
think it is important that we----
    Mr. Ford. Well, our report does not say that. Our report 
clearly states the facts. The facts are, it is 90 percent of 
the guns that were traced, that the Mexican Government and ATF 
were able to send back here to be traced by ATF. It does not 
represent--that 75 percent of the guns, that we don't know 
where they came from because they were never submitted for 
trace. That is clearly stated in our report. So if someone is 
misreporting that, you know, that is not my problem. But our 
report is based on the facts.
    The second thing that I think is more important to this, 
and the thing that I think you all should be concerned about 
is, regardless of whether we know the 100 percent of all of the 
guns that have been seized in Mexico where they came from, I 
think we should be concerned by the fact that 20,000 of those 
guns we know for sure came from here. And I think that in terms 
of us coming through with a policy and a program to address 
this problem at the border, to address your second question, 
yes I do think we need to tighten up on the border.
    When we started this project, this was not a priority, to 
stop southbound trafficking of arms. Our agencies were focused 
on northbound activities. And most of the agencies that we 
dealt with during the course of this job were just not focused 
on the whole issue of arms. So I think yeah, we need to tighten 
up on the border, I think it is an important thing. I think the 
new strategy that just came out is an effort to try to do that. 
But the data that we use in our report we believe is sound, and 
we do believe that further effort to actually expand tracing in 
Mexico will shed further light on this issue if in fact we can 
get the Mexican Government to send more traces here.
    Mr. Engel. The gentleman's time is expired. I know we are 
running out of time. I want to give my colleagues a chance to 
quickly ask. Maybe we will do three questions in a row and have 
you respond to it. I know Ms. Giffords in particular since it 
borders her district is anxious.
    So why don't we start with Mr. Green, you can do a quick 
question, then we will do three questions, and then we will 
conclude.
    Mr. Green. I would like to ask questions about two issues. 
One, I know you describe that the United States attorneys, 
Executive Office of United States Attorneys, they didn't have 
data on cases where they have made on arms smuggling. Do you 
believe it would be helpful to establish guidelines for 
identifying tracking arms trafficking cases, any additional 
legislation needed to permit such tracking or can it proceed 
under current law? If so, which agencies should go out and do 
these guidelines?
    The other one you mentioned and I mentioned in my opening 
statement is about the Merida Initiative provided no funding 
specifically designated to combat arms trafficking. And in your 
opinion what level of resources would be necessary and what 
areas would we need to be able to do our job on our side of the 
border to control the illegal export of firearms?
    Mr. Engel. Let me see if Mr. Ford can do that in under 1 
minute if you could. I know it is difficult and I apologize.
    Mr. Ford. Okay, well let me see if I understood your 
question correctly. The first issue is whether or not there is 
more that could be done to collect information on the results 
of prosecutions?
    Mr. Green. Well, the number of cases that are to be made 
on, you know, export firearms, and also the success of them. 
From what your report shows, we don't even know how many cases 
we are making.
    Mr. Ford. That is correct. One of the difficulties we had 
in the course of this job, every agency we asked, well what 
information do you have that would show number of prosecutions, 
seizures, smuggling? We were not able to find any good data 
from any of the agencies, including the U.S. Attorney's Office 
on the number of cases they prosecuted that were related to 
arms trafficking to Mexico, they couldn't give us any real good 
data on that.
    Mr. Green. I know personally they are making some cases 
now, and very high profile as in the Houston area and in Texas, 
so I am hoping we will see that because it has been a violation 
of the law to export firearms without a permit for many years, 
and we just haven't enforced the law. And the other one is, 
should we, Mr. Chairman, and what agencies should we do to try 
and make an addition to the Merida Initiative not only helping 
Mexico but also to fund our side of the border? I know the 
President has transferred ATF agents there, 35 the last number 
I heard, but even more resources to again to enforce our 
current law on the prohibition of exporting.
    Mr. Ford. Well, first of all, the President has in fact 
beginning in March allocated, I believe, I haven't confirmed 
this, approximately $350 million of reallocation of resources 
to address the issue of southbound trafficking, put more people 
on the border to do more investigations, more screening of cars 
as they go south. We haven't really examined that in detail, 
but there is already an effort to reallocate resources on that 
now.
    Mr. Engel. Let me call on Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman.
    Mr. Ford, you mentioned that the data is the data, but one 
of the issues that the Mexicans have been bringing up for about 
11 years is the fact that when they go to putting in the data 
in eTrace it is only in English. And I wanted to talk about why 
is it that we can't, with all of the technology that we have 
out there, convert this over into Spanish language?
    Mr. Ford. Okay, well I am glad you mentioned that. That is 
actually one of the State Department's programs to try to 
expedite the use of Spanish eTrace. I don't know the current 
status of where that is. We also don't know why it has taken 
them this long to convert that process into Spanish. We don't 
think it should be that difficult to do that. There are some 
logistical issues because one of the issues within Mexico is 
they want to be able to report information throughout the 
entire country.
    Right now they have very limited capability in terms of 
people that can know how to use the eTrace system itself, they 
have to be trained. And secondly, they haven't deployed the 
system throughout the entire country. So that may be one of the 
constraining factors. But we believe, and in one of our 
recommendations to State Department was they need to expedite 
this whole process.
    Mr. Engel. Thank you, Mr. Payne, for the last question.
    Mr. Payne. Thank you. Do you know whether the Mexican 
authorities can get more guns up to be traced so that we can 
really take it out to the next level? I kind of agree, you 
know, the facts are the facts. You know, of what ATF got back, 
90 percent came from the U.S. That is a fact. I would be 
interested in knowing if there is an effort to try to get more 
traced?
    Mr. Ford. There is a clear effort to try to expand the use 
of eTrace so that we have a better understanding of the overall 
nature of the problem. It is my understanding according to what 
ATF has told us most recently that they are getting more 
numbers of requests to trace guns that have been seized in 
criminal activity. So the volume is increasing, but I do not 
know at this point whether or not they have been able to expand 
beyond the 25 percent that was mentioned in our report for this 
year. We haven't got the data for 2009 yet, so we don't know 
whether it has expanded to 35 percent or whatever.
    Mr. Payne. And there is no way to tell where the guns were 
purchased from? Are there any kind of markings on guns that you 
could trace it back to the gun store that sold them?
    Mr. Ford. Well, it is two different issues there. In terms 
of being able to identify a potential manufacturer, some 
weapons, my understanding is you can do that. However, the 
importance of the tracing is to identify where the gun was 
sold.
    Mr. Payne. That is what I mean, yeah.
    Mr. Ford. The tracing is really used as part of the 
criminal investigation that ATF may undertake. So they want to 
know which shop the gun was sold at and then try to prosecute 
or, you know, investigate that issue.
    Mr. Payne. Exactly.
    Mr. Engel. I think we are going to have to have that as the 
last word, but let me just encourage members of the 
subcommittee to submit any further questions to Mr. Ford in 
writing, and I am sure he will be able to answer them.
    And I just want to call on Mr. Mack for a motion.
    Mr. Mack. Mr. Chairman, I ask unanimous consent that 
members have five legislative days to submit statements and 
questions for the record.
    Mr. Engel. Without objection, so moved.
    Mr. Ford, thank you for your excellent testimony. We really 
appreciate it, and we will be exploring all the things in the 
report further.
    The subcommittee is now adjourned.
    [Whereupon, at 12:52 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Minutes deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Burton statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>QFRs--Engel deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>QFRs--McCaul deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>QFRs--Giffords deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
